IN THE SUPREME COURT OF THE UNITED STATES

No. 20-1738
JANET L. YELLEN, SECRETARY OF THE TREASURY, ET AL.,
PETITIONERS
v.
UNITED STATES HOUSE OF REPRESENTATIVES, RESPONDENT

CERTIFICATE OF COMPLIANCE WITH WORD-COUNT LIMITIATIONS
I, Douglas N. Letter, counsel for respondent and a member of the Bar of this
Court, certify that the Brief in Opposition in the above-captioned case contains 8,081
words, excluding the portions that are exempted by Rule 33.1(d).
Douglas N. Letter
Counsel of Record
OFFICE OF GENERAL COUNSEL
U.S. HOUSE OF REPRESENTATIVES
5140 O’Neill House Office Building
Washington, D.C. 20515
(202) 225-9700
Douglas.Letter@mail.house.gov
August 30, 2021

